                                                                          United Slale" Uppartmpnt Stale       or
                                                                          and the Broadcasling Board of Governors

                                                                          Office of inspector General


                                                                                     FEB 28 2012




Mr. Jeffrey Trimble
Deputy Director
Broadcasting Board of Governors
330 Independence Avenue SW, Room 3360
Washington, DC 20237

Dear Mr. Trimble:

Subject: Report on Survey ofBroadcasting Board o.{Governors Suspension and
         Debarment Process (AUDICG-12-24)

The Office oflnspector General (OIG), Office of Audits, conducted a survey of the Broadcasting
Board of Governors (BBG) suspension and debarment process as part of its continuing effort to
assist in improving operations and internal controls.

The objective of the survey was to determine the efficacy ofBBG's suspension and debarmcnt
policies and procedures to ensure that BBG (I) does not solicit offers fTom, and award contracts
to, contractors whose names are in the Excluded Parties List System (EPLS); (2) promptly
reports, investigates, and refers, to the debarring official, I matters appropriate for that official ' s
consideration; and (3) makes practical suspension and debarment decisions consistent with the
principles offundamental fairness 2 (The survey's scope and methodology are detailed in
Enclosure \.)

During the survey, OIG determined that BBG did not have sufficiently detailed suspension and
debarment policies and procedures. BBG officials stated that their copying of the information on
debarment and suspension from the Federal Acquisition Regulation3 (FAR) into BBG's
International Broadcasting Bureau Manual of Operations and Administration was sufficient.


 I FAR 9.4, "Debarment. Suspension, and Ineligibilily." defines "Debarring Official" as the agency head or a designee 

authorized by the agency head to impose debarment. 

2 FAR 9.406-3(b)(I) and 9.407-3(b)(l) require agencies to follow procedures that are "consistent with principles of 

fundamental fairness. " 

' FAR 9.4. 

However, a review of the policy manual showed that the information in the manual contained
minimal agency procedures for reporting, investigating, and referring contractors that performed
poorly. Also, BBG officials stated that BBG had processed only one contractor suspension in
the last 20 years and that it had had no debarments. Because BBG had processed only one
suspension in 20 years, OIG was unable evaluate BBG’s suspension and debarment decisions.

In soliciting and awarding procurements, BBG procurement officials stated that BBG staff
performed some procedures to comply with FAR suspension and debarment requirements,
including preventing prohibited parties from obtaining Federal contracts and grants by consulting
the EPLS and by having contracting officers discuss contractor performance weaknesses with
other contracting officers. However, OIG was unable to verify the extent of BBG’s actions taken
in this regard because it could not obtain a usable universe of contracts and grants from which to
select a sample of procurements to test the effectiveness of BBG’s efforts.

To test BBG’s compliance in preventing prohibited parties from obtaining Federal contracts and
grants, OIG, from June to September 2011, made multiple requests to obtain the universe of
contracts and grants it needed to continue the survey. However, the information BBG provided
was in a format that OIG could not review, as the data was extracted from financial software and
BBG does not possess a contract data management system. Therefore, OIG was not able to use
this information to obtain an effective universe from which to conduct its testing.

OIG also found that BBG did not record contractor performance information, such as contracts
that were terminated for cause or default, in Federal automated procurement databases.
Recording this information is significant because contractors performing poorly that were
terminated for default or cause is a prime consideration in determining whether a referral to the
suspension and debarment official is warranted if there is no historical evidence of the
contractor’s performance to report, investigate, or refer a contractor for either action. However,
BBG did maintain a file of information on poorly performing contractors to prevent such
contractors from gaining access to future BBG contract opportunities, as well as to provide this
information to outside agencies if BBG were to be called for a reference.

Because of the lack of usable data available within the time allotted for the review and the lack
of sufficiently detailed policies and procedures, the OIG team was unable to determine whether
there was assurance that contracts and grants were awarded only to responsible sources and that
the Government’s interests were protected. Therefore, OIG concluded its fieldwork and is
reporting the results it obtained during the survey.

Based on the survey, OIG is recommending that BBG strengthen suspension and debarment
policies and procedures to cover its domestic and overseas procurement operations and that it
record contractor performance information in Federal automated procurement databases for
contracts that are terminated for cause or default. In its February 7, 2012, response (see
Enclosure 3), BBG concurred with the report’s two recommendations.




                                                 2

                                                Background
BBG is an independent Federal agency that supervises all U.S. Government-supported civilian
international broadcasting. BBG staff provide the BBG Board with technical, professional, and
administrative support, as well as strategic guidance and management of selected agency
programs. BBG oversees the operations of the following:

    	 The International Broadcasting Bureau (IBB), which includes the worldwide 

       broadcasting services of Voice of America and Office of Cuba Broadcasting. 


    	 Three grantee organizations: Radio Free Europe/Radio Liberty, Radio Free Asia, and the
       Middle East Broadcasting Networks.

    	 BBG strategic planning and consolidated audience research program for the broadcasting
       entities.

Overall, IBB provides transmission services for all the broadcasters under BBG, and IBB’s
Office of Contracts is responsible for the administration of domestic contracts. That office plans,
manages, develops, implements, executes, and administers a simplified acquisition process and
contracts in excess of $100,000 for supplies and services and a construction system worldwide.

The FAR4 states, “Agencies shall solicit offers from, award contracts to, and consent to
subcontracts with responsible contractors only.” The purpose of this FAR requirement is to
protect the Government’s interest and minimize the loss of taxpayer dollars through contractor
fraud and embezzlement. Suspensions and debarments are discretionary actions that agencies
implement to protect the Federal Government by excluding contractors that commit fraud,
behave unethically, or willfully fail to perform or have a history of failure to perform according
to the terms of a contract from conducting business with the Federal Government.5 In August
1989, the Federal Government established a Government-wide suspension and debarment policy
applicable to procurement transactions by Executive Order 12689 and implemented through the
FAR. The FAR6 requires agencies to establish procedures for the prompt reporting,
investigation, and referral of contractors that perform poorly to the debarring official for
consideration.

According to the FAR,7 suspension is an action taken by an agency’s suspending official to
exclude a person and/or entity from participating in Federal contracts for a temporary time period
pending the completion of an agency investigation or “legal proceedings.” Debarment is an
action taken by the debarring official to exclude a person and/or entity from participating in
Federal contract activities for a period of up to 3 years. Debarments are generally based on
causes listed in the FAR that identify the grounds for debarment.8 Excluding contractors from

4
  FAR 9.402(a).

5
  FAR 9.402(b) states, “The serious nature of debarment and suspension requires that these sanctions be imposed 

only in the public interest for the Government's protection and not for the purposes of punishment.” 

6
  FAR 9.406-3, “Procedures.”

7
  FAR 9.407-1, “General.”

8
  FAR 9.406-2, “Causes for debarment.”


                                                         3

participating in Federal contracts under a suspension or debarment requires agencies to identify
those contractors in EPLS to protect other Government agencies from procurement losses.
According to the FAR,9 “Contractors debarred, suspended, or proposed for debarment are also
excluded from conducting business with the Government as agents or representatives of other
contractors.” (Additional information on causes for suspension and debarment actions as
identified in the FAR10 is presented in Enclosure 2.)

The EPLS is a Web site maintained by the General Services Administration (GSA) for the
purpose of efficiently and conveniently disseminating information on parties that are excluded
from receiving Federal contracts, certain subcontracts, and certain Federal financial and
nonfinancial assistance and benefits.11 In addition, according to the Department of State
Acquisition Regulation,12 “Contracting officers shall not award a contract to any of the entities
listed on the Specially Designated Nationals (SDN) list,” which is shown on the Department of
the Treasury’s Office of Foreign Assets Control Web site.13

Prior Audit Reports

In a review of EPLS data for FYs 2006 to 2010 and suspension and debarment programs at 10
Federal agencies, the Government Accountability Office (GAO) reported the following in
August 2011:14

        Four of the agencies had active programs resulting in suspensions and debarments
        and six agencies had few or no suspensions or debarments. The four agencies
        with active programs had similar characteristics including dedicated program
        staff; detailed implementing guidance to supplement the FAR; and practices that
        encouraged an active referral process, including a step-by-step guide for
        compiling an action referral memorandum.

According to the GAO report, the most active suspension and debarment programs promoted a
culture of acquisition integrity where suspension and debarment policies were understood by all
agency staff. GAO recommended that the six agencies with programs that did not have
suspension and debarment policies, procedures, and implementing guidance adopt the
characteristics of the four agencies that had active programs. Five of the six agencies, including
the Department of State, agreed with the recommendation. One agency disagreed with the
recommendation, stating that its existing guidelines were sufficient. GAO disagreed with that
agency’s position.



9
  FAR 9.405, “Effect of listing.” 

10
   FAR 9.406-2.

11
   The EPLS is provided as a public service by the General Services Administration pursuant to the provisions of 

31 U.S.C. § 6101, note; 48 CFR 9.404; E.O. 12549 and E.O. 12689; and each agency's codification of the Common 

Rule for Non-procurement suspension and debarment.

12
   Department of State Federal Acquisition Regulation 609.404-70, “Specially Designated Nationals List.”

13
   Department of the Treasury’s Office of Foreign Assets Control Web site at <www.treas.gov/ofac >. 

14
   Suspension and Debarment, Some Agency Programs Need Greater Attention, and Governmentwide Oversight
Could Be Improved (No. GAO-11-739, Aug. 31, 2011).

                                                        4

A February 2010 Department of Homeland Security (DHS) report15 stated that DHS does have
suspension and debarment policies and procedures but that DHS mangers were reluctant to apply
the policies and procedures against poorly performing contractors. The report stated, “The
procurement officials prefer to use other administrative remedies to address poor contractor
performance.” In addition, the report “identified 23 instances where contracts were terminated
for default or cause but were not reviewed to determine whether a suspension and debarment
referral was warranted.” The report concluded, “[R]eluctance to pursue suspension and
debarment could put the department and the government at risk of continuing to conduct
business with poorly performing contractors and may result in decreased productivity and
increased cost.”

In an October 2009 report,16 the U.S. Agency for International Development (USAID) OIG
reported that USAID’s suspension and debarment program “included seven debarment actions
and two suspension actions, but these actions were too few, and several of them were poorly
executed.” According to the report, USAID’s actions “minimized the protection the [suspension
and debarment] process should afford to the public interest.”

                                          Results of Survey
OIG found that BBG did not have sufficiently detailed suspension and debarment policies and
procedures.17 However, it was determined that BBG did have policies in the IBB Manual of
Operations and Administration that mirror the FAR. BBG officials stated that they had
processed only one contractor suspension in the past 20 years. However, OIG was unable to
verify that contractor suspension or review any documentation showing that BBG had considered
suspension or debarment actions over the past 3 years. In addition, BBG could not provide OIG
with a useful universe of contracts and grants for domestic and overseas procurement actions in
the form needed by the OIG team. Without more detailed policies and procedures and a useful
universe to analyze, there may be an increased risk that contracts and grants could be awarded to
contractors listed on the EPLS for poor performance or for one of the causes specified by the
FAR.

Suspension and Debarment Policies and Procedures Lacking

BBG did not have sufficiently detailed policies and procedures, detailed instructions, and
detailed guidance that described procurement office responsibilities for suspension and
debarment investigations, referrals, and the reporting of contractors that performed poorly. Since
1989, the BBG had processed only one suspension. However, none of the BBG officials OIG
interviewed could remember the suspension or provide information on the incident.

A senior BBG procurement official stated that BBG staff involved with soliciting and awarding
procurements did comply with suspension and debarment requirements contained in the FAR,
such as preventing prohibited parties from obtaining Federal contracts and grants. Although the

15
   DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors (No. OIG-10-50, Feb.

2010).

16
   Audit of USAID’s Process for Suspension and Debarment (No. 9-000-10-001-P, Oct. 1, 2009).

17
   FAR 9.406-3.


                                                     5

FAR18 prescribes the overall policies and procedures governing the suspension and debarment
of contractors by agencies, it directs agencies to establish their own appropriate procedures to
implement the FAR guidance.

BBG officials stated that they did not have detailed policies and procedures related to suspension
and debarment of contractors that performed poorly but recognized the need to develop detailed
policies and procedures. The Procurement Executive added that when his staff detected a
contractor performing poorly, the office staff sent a cure notice to the contractor.19 If the
contractor took action to correct the deficiency, no further suspension or debarment action was
taken. However, if the contractor did not cure or remedy the deficiency, BBG would cancel the
contract for default.

Although BBG officials made statements regarding the checking of the EPLS and sending cure
notices to contractors, BBG did not have easily verifiable electronic documentation to support
checking the EPLS, the use of cure notices, or contract default actions, as BBG maintains this
documentation in paper form in its individual contract files.

BBG officials stated at the beginning of OIG’s survey that referencing FAR subpart 9-4
requirements in BBG’s policy manual20 was sufficient compliance with the FAR, since BBG had
had only one suspension in 20 years. However, OIG’s review of BBG’s policy manual shows
that the manual reiterates information contained in the FAR and contains minimal agency
procedures for reporting, investigating, and referring contractors that perform poorly.

At the November 2011 exit conference, BBG procurement officials agreed that specific
suspension and debarment policies and procedures based on FAR requirements were needed and
were being drafted. The officials also stated that they would welcome information and examples
from other agency suspension and debarment programs to assist in developing suspension and
debarment procedures for BBG’s domestic and overseas procurement operations.

         Recommendation 1. OIG recommends that the Director, Broadcasting Board of
         Governors, strengthen worldwide suspension and debarment policies and procedures in
         compliance with Executive Order 12689 and implemented through the Federal
         Acquisition Regulation, subpart 9.4, “Debarment, Suspension, and Ineligibility.”

         BBG Response and OIG Reply: BBG concurred with the recommendation, and based
         on the response, OIG considers the recommendation resolved, pending further action.
         This recommendation can be closed when OIG reviews and accepts documentation
         showing that the worldwide suspension and debarment policies and procedures have been
         strengthened.


18
   FAR 9.4.

19
   FAR 49.607 states that a cure notice is issued by the Government to inform the contractor that the Government

considers the contractor’s failure a condition that is endangering performance of the contract. The cure notice 

specifies a period of 10 days or more for the contractor to remedy the condition. If the condition is not corrected

within this period, the cure notice states that the contractor may face the termination of its contract for default. 

20
   International Broadcasting Bureau Manual of Operations and Administration, pt. IX, “Procurement,” sec. 160,

“Debarred, Suspended, and Ineligible Bidders.” 


                                                           6

Contractor Performance Information Not Recorded in Federal Databases

While BBG had written policies for debarment and suspension, BBG did not have an active case
referral process for the use of BBG officials in determining whether a contractor could be subject
to suspension or debarment. BBG’s Procurement Executive also stated that the office does not
enter contractor performance information into the appropriate Federal databases because of cost
and formatting and/or logistics reasons and that it does not have written policies and procedures
to ensure that all pertinent contractor performance information is recorded in the appropriate
databases. BBG’s Procurement Executive also noted, however, that BBG is working to correct
these omissions.

BBG officials acknowledged that for a number of reasons (fiscal and otherwise) they do not
comply with the part of the FAR21 that requires agencies to prepare an evaluation of contractor
performance for each contract that exceeds the simplified acquisition threshold ($150,000 in
most cases)22 when contract work has been completed. The FAR also requires that contractor
performance information be documented annually when the contract period exceeds 1 year.23
However, BBG began the process of complying with this requirement.

Regarding the documentation of contractor performance information, the February 2010 DHS
report24 states the following:

         It is always in the government’s best interest to be aware of a contractor’s failure
         to perform. Recording the identity of poorly performing contractors and the
         rationale underlying termination decisions in agency and government-wide
         databases would increase the knowledge base of government procurement
         professionals, thereby reducing the risk of entering into contractual relationships
         with individuals and corporate entities that have histories of not performing in
         accordance with contract requirements.

         Recommendation 2. OIG recommends that the Director, Broadcasting Board of
         Governors (BBG), comply with the requirements of Federal Acquisition Regulation
         subpart 42.1502(b) and develop procedures to ensure that all pertinent contractor
         performance information is recorded in BBG’s automated procurement database when it
         becomes available and in other appropriate Government-wide databases that track and
         monitor contractor performance.

         BBG Response and OIG Reply: BBG concurred with the recommendation, and based
         on the response, OIG considers the recommendation resolved, pending further action.
         This recommendation can be closed when OIG reviews and accepts documentation
         showing that BBG has developed procedures pertaining to the recording of pertinent
         contractor performance information.


21
   FAR 42.1502(b), Policy.” 

22
   “Simplified acquisition threshold” is defined in FAR 2.101, “Definitions.” 

23
   FAR 42.1502(a).

24
   DHS Report No. OIG-10-50.


                                                          7

Please provide your response to the report and information on actions taken or planned for
Recommendations 1 and 2 within 30 days of the date of this letter. Actions taken or planned arc
subject to followup and reporting in accordance with the enclosed compliance response
information.

OIG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact Evelyn R. Klcmstine, Assistant Inspector General for Audits,
at (202) 663 -0372 or Richard Astor, Director, Contracts and Grants Division, at (703) 284­
260 I or by email at astorr@state.gov.

Sincerely,



Harold W. Geisel
Deputy Inspector General

Enclosures: As stated.




                                               8

                                                                                      Enclosure 1

                                  Scope and Methodology

        To determine whether the Broadcasting Board of Governors (BBG) had an effective
suspension and debarment program, the Office of Inspector General (OIG) reviewed applicable
laws and regulations concerning suspension and debarment procedures. OIG also met with BBG
officials from the Office of Contracts, the Office of the Chief Financial Officer (CFO), the Office
of the General Counsel, and the Office of the International Broadcasting Bureau (IBB). The
Procurement Executive resides in the Office of Contracts. OIG also reviewed other Federal
agency suspension and debarment audit reports.

        To determine the degree of compliance with suspension and debarment requirements
contained in Federal Acquisition Regulation (FAR) subpart 9.4, “Debarment, Suspension, and
Ineligibility,” OIG planned to take the following actions:

   	 Determine whether contracts and grants awarded between 2008 and 2010 were awarded
      to entities whose names were on the Excluded Parties List System (EPLS) or the
      Specially Designated Nationals (SDN) list and that therefore should have been precluded
      from receiving contracts and grants from BBG.

   	 Determine the adequacy of reporting, investigating, and referring to the debarring official
      matters appropriate for that official to consider for possible suspension and debarment
      actions.

   	 Identify suspension and debarment policies and procedures of other Federal agencies to
      find best practices that could be applicable to and enhance BBG’s program.

        OIG was unable to advance to the audit phase of the audit because BBG did not provide
useable data from which to select a sample of contracts and grants to review and to complete the
survey steps. During initial fieldwork, OIG requested contract and grant information during
meetings with BBG officials, by email, and by telephone. Significant delays occurred when
procurement and accounting officials stated on several occasions that they needed approval from
senior-level management of IBB to provide OIG with the information requested. When BBG did
provide the information, it was in a format that was not compatible with OIG’s request and could
not be verified. The purpose of OIG’s proposed sample was to select procurement files to
determine whether there was adequate evidence that BBG procurement officials had consulted
the EPLS and the SDN before signing worldwide contract and grant awards.

       As of September 16, 2011, approximately 3 months from the start of OIG’s work, BBG
had not provided the requested contract and grant information. However, BBG requested a delay
in providing that information until after BBG’s year-end financial work was complete. Because
OIG was unable to obtain a usable list of contracts and grants, OIG concluded its fieldwork and
decided to report on the results obtained during the survey. OIG notified BBG of this action, and
on November 17, 2011, OIG briefed BBG officials on the survey results.


                                                9

        OIG attempted to conduct a performance audit in accordance with government auditing
standards. Those standards require that the audit be planned and performed to obtain sufficient,
appropriate evidence to provide a reasonable basis for the findings and conclusions based on the
audit objectives. However, OIG could not obtain sufficient usable documentation to perform
tests and other auditing procedures to carry out the audit steps described. Therefore, the findings
and recommendations in this report are based primarily on observations and discussions with
BBG officials and audit reports from the Department of Homeland Security, the Government
Accountability Office, and the U.S. Agency for International Development. If OIG had
completed the audit procedures as planned, other matters may have come to its attention and
been reported.

Review of Internal Controls and Automated Systems

        During OIG’s review of internal controls, OIG could not determine whether contracts and
grants were awarded to responsible contractors and subcontractors. OIG also could not
determine whether contracts awarded between 2008 and 2010 were awarded to entities whose
names were on the EPLS or the SDN and therefore should have been precluded from receiving
contracts and grants from BBG. In addition, OIG could not determine the adequacy of reporting,
investigating, and referring, to the debarring official, matters appropriate for that official to
consider for possible suspension and debarment actions.

       BBG did not provide usable data for all contract and grant actions for 2008 to 2010. The
requested universe was to include contract vendor names and locations; grants awarded and
amounts; and information on vendors terminated for cause, default, or the convenience of the
Government. Procurement Executive personnel stated that BBG did not have an automated
database from which to download this information. Instead, Procurement Executive personnel
obtained a listing of contract obligations from the Chief Financial Officer, which uses financial
application software that produces obligation and expenditure reports. However, this financial
system may not provide all contracts and grants when the contractor’s address is omitted or no
expenditures have been made.

        On June 21, 2011, BBG sent the listing provided by the Procurement Executive to OIG.
The listing showed 23,288 contract line actions for 2008 to 2010. Of the 23,288 contract actions,
1,456 transaction lines had “zero” obligation amounts; 1,998 had credits or negative balances;
and 19,834 had positive balances ranging from $1 to $11,288,691. On August 12, 2011, BBG
resubmitted that same listing to OIG, and it had about 97,000 contract line actions. While OIG’s
additional requests had expanded the universe from that which was initially requested, BBG
procurement officials could not explain why contract line actions had increased so significantly
in almost 2 months, and it could not adequately explain the impact the balances had on
identifying the contracts and grants universe. Because of the inconsistencies in the financial
information not directly related to contracts and grants in the listings, OIG determined that the
universe from which to select a sample of domestic and overseas contracts and grants for review
was unusable.




                                                10 

Use of Computer-Processed Data

       OIG did not rely on BBG’s computer-processed data because BBG did not have an
automated procurement database and did not input required contractor performance information
into Federal automated databases. Also, BBG provided financial data instead of procurement
information to OIG.




                                             11 

                                                                                          Enclosure 2

            Summary of Causes for Suspension or Debarment as Described
                       in the Federal Acquisition Regulation

        As described in the Federal Acquisition Regulation,1 suspensions are temporary in nature
and are used to protect the Federal Government until investigations and any ensuing legal
proceedings that could lead to debarment actions are completed. In no instance may a
suspension last longer than 18 months unless legal proceedings have been initiated within that
period. Causes for suspension actions include adequate evidence of the following:

          	 Commission of fraud or a criminal offense in connection with obtaining, attempting
             to obtain, or performing a public contract or state contract.
          	 Commission of embezzlement, theft, forgery, bribery, falsification, or destruction of
             records; making false statements; tax evasion; violating federal criminal tax laws; or
             receiving stolen property.
          	 Commission of any other offense indicating a lack of business integrity or business
             honesty that seriously and directly affects the present responsibility of a Government
             contractor or subcontractor.
          	 Any other cause of so serious or compelling a nature that it affects the present
             responsibility of a Government contractor or subcontractor.

        Debarments, on the other hand, generally do not exceed 3 years but can be extended if the
debarring official determines that it is in the Government’s best interest. Causes for debarment
actions include the following:

          	 Conviction of or civil judgment for fraud, violation of antitrust laws, embezzlement,
             theft, forgery, bribery, false statements, or other offenses indicating a lack of business
             integrity.
          	 Violation of the terms of a government contract or subcontract so serious as to justify
             debarment, such as a willful failure to perform in accordance with the terms of one or
             more contracts or a history of failure to perform, or of unsatisfactory performance of
             one or more contracts.
           Noncompliance with employment provisions of the Immigration and Nationality Act.
           Any other cause of so serious or compelling a nature that it affects the present
             responsibility of the contractor or subcontractor.




1
    FAR 9.406-2, “Causes for debarment.”

                                                   12 

                                                                                                                 Enclosure 3




INIERNATIONAL BROADCASIlNG BUREAU
INfERNAll0NAL




                                                        February
                                                        Feb      7,20
                                                           ruary 7.   12
                                                                    2012



     Mr. Harold W. Geisel
             nspector Gene
     Deputy Inspetlor  General
                           ral
     Department of S tate

     Dear Mr
          Mr.. Geise l:

    This is in response to the e- mai l from Mr. Ric
                               e-ma                           Astorr., da ted February 3
                                                     ichhard Asto                      J , 20            ingg the
                                                                                           20112, regard in
    Office o f Inspector General
                           enera l (OIG), Offic
                                           Officee o f Aud  its revised draft Repo rt on the S urv ey o f
                                                       Audits
    Broad castiting
    Broadcas     ng Board of Governors Suspension
                                          SusJK'nsion and Debarmenl
                                                              Dcbarmenl Pro     cess.
                                                                              rocess.

    Thee Bro adca
    Th        adcast in g Board o f Governors (BBG) has reviewed the revis ed draft report and co
                   stin                                                                              conc urs
                                                                                                       ncurs
          thee recommendations no
    with th                          ted.. How ever
                                   noted       ever,, BBG 's Office of            hass ide
                                                                       Contracts ha
                                                                    ofConlracts        idenntifi ed a
    typo graphical error al
    typographical          at footnote 21. The proper ref erence is FAR 42.
                                                       reference         42.1I S
                                                                               502( b).

    We thank you fo r you
                      yourr in
                            inclusio
                               clusio n of o ur eom
                                                com ments and Itle
                                                     ents     ttle o pport unitt y to furt
                                                                     pportuni              her respo
                                                                                       urther        nd 10
                                                                                               respond  to the
    draft report .


    •ii"IYIOI"i"'
           (6)iVI'I"'
                   iiiYiql~i"I;OI"iSi,IBB  fee l free to " ' n""                                            0'
                                       please fee l free to
    (b)                                    Office of Performance ~;;rt




                                           ~/           Director
                                                        Dire<::lor




                          3JO lndependeroce
                          330 tndependence Avenue. SW                Washingtnn. DC 20237
                                                                     Wwungtnn.      2OZJ7




                                                         13 

